No. 21- _______________
IN THE SUPREME COURT OF THE UNITED STATES
BRIAN DAVID JOHNSEN,
Petitioner, v.
STATE OF CALIFORNIA, Respondent.
CERTIFICATE OF SERVICE
I, Neoma Kenwood, a member of the Bar of this Court, do hereby certify
that my business address is 345 California Street, Suite 1400, San Francisco
94104, in the City and County of San Francisco, California, Telephone (415)
495-0500; that on June 28, 2021, I served, pursuant to Supreme Court Rule
29, one true copy of the PETITION FOR A WRIT OF CERTIORARI and
MOTION TO PROCEED IN FORMA PAUPERIS in the
above-entitled matter on all following parties required to be served by placing
same in an envelope addressed as follows:

ATTORNEY GENERAL OF THE
STATE OF CALIFORNIA ATTN:
KAY LAUTERBACH
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 942442550
(916) 445-9555
(also served by e-mail at
Kay.Lauterbach@doj.ca.
gov)

SUPREME COURT OF
CALIFORNIA ATTN:
APRIL BOELK
350 McAllister Street, Room
1295, San Francisco, CA
94102-4797
(415) 865-7000

BRIAN DAVID JOHNSEN,
#J-25500
CSP-SQ
4 EB 98
San Quentin, CA 94974

ERIC S. MULTHAUP
35 Miller Avenue, #229
Mill Valley, CA 94941
(415) 381-9311
(also served by e-mail at
mullew@comcast.net)
STEVEN L. CRAWFORD
Law Offices of Steven L.
Crawford
192 North 11th Street
Grover Beach, CA 93433
805-458-6312
(also served by e-mail at
slcrawfordlaw@gmail.com)

The envelope was then sealed and deposited in the United States mail at
San Francisco, California with first-class postage thereon fully prepaid. All
persons required to be served have been served.
I declare under the penalty of perjury that the above is true and correct.
Executed on June 28, 2021.
/S/

Neoma Kenwood

